                       UNCLASSIFIED

   United States Department of State

 and the Broadcasting Board of Governors

          Ofﬁce of Inspector General





                  Ofﬁce of Audits



   Review of Policies and 

Procedures for Implementing 

 the American Recovery and 

  Reinvestment Act of 2009

           at the

    Department of State


 Report Number AUD/PP-10-07, October 2009




                                 IMPORTANT NOTICE


  This report is intended solely for the ofﬁcial use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Ofﬁce of Inspector General. No secondary distribution may be
  made, in whole or in part, outside the Department of State or the Broadcasting
  Board of Governors, by them or by other agencies or organizations, without prior
  authorization by the Inspector General. Public availability of the document will be
  determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
  disclosure of this report may result in criminal, civil, or administrative penalties.




                         UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE




     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

     It is my hope that this report will result in more effective, efficient, and/or economical
operations. I express my appreciation to all of those who contributed to the preparation of this
report.




                                           Harold W. Geisel
                                           Acting Inspector General
                                            UNCLASSIFIED




                               TABLE OF CONTENTS

Section                                                                                                               Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

OBJECTIVE, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

RESULTS OF REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

APPENDICES

   A. Laws, Regulations, and Relevant Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

   B. Independent Public Accountants’ Report . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





                                             UNCLASSIFIED

                                                 UNCLASSIFIED





                                EXECUTIVE SUMMARY

        The American Recovery and Reinvestment Act of 2009 (ARRA) included $600
    million in funding for infrastructure improvements at the Department of State (the
    Department) and established new reporting requirements related to the awarding and
    use of Recovery Act funds to promote transparency and accountability. ARRA also
    included mandates for the Ofﬁce of Inspector General (OIG) to provide oversight
    and audits of programs, grants, and activities funded by the Act.

         This status report is the ﬁrst of several reports anticipated by the OIG on the
    use of Recovery Act funds by the Department. Based on information provided by
    responsible Department ofﬁcials, OIG found that the Department has made satis-
    factory progress in applying ARRA requirements and guidance from the Ofﬁce of
    Management and Budget (OMB) for reporting and monitoring the use of ARRA
    funds. Speciﬁcally, the Department has developed policies, procedures, and plans
    for reviewing quarterly Recovery Act data, ensuring that quarterly reports are ﬁled
    by funds recipients, and conducting required reviews of those reports. Furthermore,
    policies, procedures, and plans are in place to avoid key data problems; remediate
    systemic reporting problems; and use the reported data to help assess compliance by
    receipients of Recovery Act funds with the terms and conditions of contract award
    agreements.

         Additionally, this report includes, as Appendix B, the draft report International
    Boundary and Water Commission [IBWC], United States and Mexico, United States Section–
    Report on Controls Placed in Operation for Compliance With the Requirements of the American
    Recovery and Reinvestment Act of 2009. The independent public accountant performed
    the audit to assess controls for Recovery Act compliance requirements by the IBWC.
    In its report, the independent public accountant found that controls in place as of
    September 30, 2009, were operating with sufﬁcient effectiveness to provide reason-
    able, but not absolute, assurance that IBWC has adequate processes and systems in
    place to track and report Recovery Act funds and that IBWC’s Recovery Act reports
    are accurate and complete.




OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   1 .


                                                 UNCLASSIFIED
                                                   UNCLASSIFIED





2 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                   UNCLASSIFIED
                                                 UNCLASSIFIED





                                           BACKGROUND

        On February 17, 2009, President Barack Obama signed into effect the American
    Recovery and Reinvestment Act of 2009, which provided $787 billion for Tax Relief
    ($288 billion), State and Local Fiscal Relief ($144 billion), Federal Social Programs
    ($244 billion), and Infrastructure ($111 billion).

         Section 1512 of the Recovery Act requires that not later than 10 days after the
    end of each calendar quarter, each recipient that received Recovery Act funds from
    a Federal agency submit a report to that agency to include the following: (1) the
    amounts spent on projects or activities; (2) a list of projects or activities funded by
    name, including a description and completion status; (3) estimates of the number of
    jobs created and retained by those projects or activities; and (4) details on sub-awards
    and other payments.

        On June 22, 2009, OMB issued, to heads of departments and agencies, OMB-09-
    21, Implementing Guidance for the Reports on Use of Funds Pursuant to the American Recovery
    and Reinvestment Act of 2009. This guidance was to provide Federal agencies and
    funding recipients with information to effectively implement section 1512 report-
    ing requirements. The guidance requires prime recipients1 to enter their data to the
    on-line Web portal2 for collecting all Recovery Act recipient reports beginning on
    October 10, 2009.

        The Department seeks to use ARRA funds to create and save jobs, repair and
    modernize domestic infrastructure crucial to the safety of American citizens, en-
    hance energy independence and reduce global warming by “greening” its facilities,
    and expand consular services offered to American taxpayers. From the infrastruc-
    ture portion, the Department is overseeing $600 million of investment for seven
    projects and a funds transfer to the U.S. Agency for International Development
    (USAID), as shown in Table 1.




    1
     Prime recipients are non-Federal entities that receive Recovery Act funding as Federal awards in
    the form of grants, loans, or cooperative agreements directly from the Federal Government.
    2
     The on-line Web portal is www.FederalReporting.gov.


OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   3 .


                                                 UNCLASSIFIED
                                                   UNCLASSIFIED




               Table 1. Activity and ARRA Funds
                                                                                                           Amount
                                    Program/Activity                                                   (In Thousands)
                Diplomatic and Consular Programs                                                                 $ 90,000
                   Hard Skills Training Center                                                                     70,000
                    Passport Facilities                                                                            15,000
                   National Foreign Affairs Training Center                                                         5,000
                Capital Investment Fund                                                                           290,000
                   Data Center                                                                                   $120,000
                   IT Platform                                                                                   $ 33,500
                   Cyber Security                                                                                $ 98,500
                   Transfer to USAID                                                                             $ 38,000
                IBWC Construction                                                                                $220,000
                   Total                                                                                         $600,000
               Source: OIG.


                    Diplomatic and Consular Programs – The Hard Skills Training Center ($70
               million) will be built within 150 miles of Washington, D.C., and will provide a cen-
               tralized location to support all security-related training that is currently conducted
               at 15 locations throughout the United States. The Passport Facilities ($15 million)
               will fund ﬁve new start-up sites and the renovation and expansion of two existing
               sites. The National Foreign Affairs Training Center ($5 million) will expand existing
               training capacity to ensure personnel assigned overseas have the necessary language
               training and information technology training. Projects include upgrading facility and
               grounds, updating orientation signage for the 72-acre campus, and upgrading infra-
               structure wiring and public address systems.

                   Data Center – The Data Center program ($120 million) will build an enterprise
               data center in the western United States and consolidate all domestic servers into
               four enterprise data centers. The program will provide a highly available, scalable,
               and redundant data center infrastructure that will substantially reduce the Depart-
               ment’s risk and provide for future information technology (IT) growth. The new
               data center to be built is the Enterprise Server Operations Center - West. It will be
               established on the western power grid. The facility will be built in conjunction with
               the General Services Administration but will be owned by the Department. The
               three other facilities are the Enterprise Server Operations Center - East, which is a




4 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                   UNCLASSIFIED
                                                 UNCLASSIFIED




    new data center recently established in a commercial collocation facility; the Belts-
    ville, Maryland, Enterprise Server Operations Center, which will host all develop-
    ment systems; and the Old War Data Center at the Harry S Truman building in
    Washington, D.C., which will host other secure systems.

        IT Platform – The funds allotted are programmed for new telephone systems
    ($10 million), new computers and support ($11.8 million and $1.2 million), and mo-
    bile communications for emergency situations ($10.5 million).

        Cyber Security – The funds allotted are for smaller projects to guard against and
    track cyber attacks ($62.2 million), improve hardware security and testing ($6 mil-
    lion), safeguard U.S. citizens’ cyber security ($25.4 million), and expand cyber educa-
    tion ($4.9 million). These projects include deploying new computer security systems,
    using “Smart” ID Cards by all employees to access systems, and providing the next
    generation of secure phones.

        Transfer to USAID – The Department will transfer $38 million to USAID to
    manage IT security and upgrades that will support overseas mission-critical opera-
    tions. The Department collaborated with USAID and determined that the funding
    should be dedicated to the Global Acquisition and Assistance System project cur-
    rently managed and planned by USAID.

         IBWC – This project, totaling $220 million, will evaluate and repair portions of
    the ﬂood control systems for 495 miles of the upper and lower Rio Grande River,
    protecting about 3 million U.S. citizens in New Mexico and Texas. The project con-
    sists of $213 million for the construction and repair of levees, $6 million to rehabili-
    tate contaminated soil and groundwater, and $1 million for other related projects.

    ARRA Reporting Requirements and OIG Oversight
    Responsibilities

        The Recovery Act established new reporting requirements related to the award-
    ing and use of funds to promote transparency, which will help drive accountability
    for the timely, prudent, and effective spending of Recovery Act dollars. Challenges
    associated with the new reporting requirements include developing the systems
    and infrastructure for collecting and reporting the required information, educating
    recipients about the reporting requirements, assessing the quality of the reported
    information, and using the collected information effectively to monitor and oversee
    Recovery Act programs and performance. Laws, regulations, and criteria relevant to
    Recovery Act reporting and monitoring requirements are listed in Appendix A.



OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   5 .


                                                 UNCLASSIFIED
                                                   UNCLASSIFIED



                   Along with the provisions for the Department, the Recovery Act mandates that
               OIGs provide oversight and audits of programs, grants, and activities funded by
               the Recovery Act. Although the Department will not be making any grants from its
               ARRA funds, OIG has embarked on a program of oversight related to Recovery Act
               funding of Department programs and activities to minimize the risks of inefﬁcient
               or improper actions that could put taxpayers’ money at risk.




6 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                   UNCLASSIFIED
                                                 UNCLASSIFIED





        OBJECTIVE, SCOPE, AND METHODOLOGY

         The overall objective of OIG’s review of Department oversight of ARRA funds
    is to ensure that policies and procedures are developed to provide the following:

          • 	 timely and effective implementation of ARRA projects and activities in com-
              pliance with ARRA requirements;

          • 	 timely and accurate reporting on the use of Recovery Act funds and the
              progress of ARRA-funded projects and activities;

          • 	 the establishment of proper internal control procedures to mitigate instances
              of fraud, waste, error, and abuse; and

          • 	 conﬁrmation that contractors and other fund recipients meet eligibility
              requirements and comply with award requirements.

         The scope of this status report, which OIG anticipates will be one of several
    reports related to oversight of Recovery Act funds, was limited to information pro-
    vided by Department ofﬁcials or obtained on the Department’s Web site. OIG did
    not provide a draft of the report to the Department, but ofﬁcials were briefed on the
    report’s content. Work for the review was performed in October 2009 and, because
    of time constraints and the review’s limited scope, did not follow Government Auditing
    Standards, as established by the Comptroller General of the United States.

        OMB guidance also requires that 22 to 29 days after each quarter (for example,
    October 22-29, 2009), Federal agencies perform a limited data quality review of the
    submitted information and notify recipients of two key data problems: Material
    omissions and signiﬁcant reporting errors. No later than 30 days after the end of the
    quarter (for example, October 30, 2009), the detailed recipient report will be made
    available to the public on a Web site.3




    3
        The Recovery Act Web site is www.recovery.gov.


OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   7 .


                                                 UNCLASSIFIED
                                                   UNCLASSIFIED



                   Additionally, this status report provides the results of the audit performed by
               OIG’s independent public accountant that assessed controls for Recovery Act com-
               pliance requirements by the International Boundary and Water Commission, United
               States and Mexico, United States Section (see Appendix B). The independent public
               accountant performed a limited data quality review of information submitted by
               IBWC.4

                    OIG requested information from Department ofﬁcials and performed limited
               testing to determine whether they had developed policies, procedures, and plans
               for reviewing quarterly Recovery Act data; ensuring that quarterly reports are ﬁled
               by funds recipients; and conducting required reviews of those reports. OIG also
               requested information from Department ofﬁcials to determine whether they had
               developed policies and procedures to avoid two key data problems, material omis-
               sions and signiﬁcant reporting errors, or had developed plans or processes to reme-
               diate systemic reporting problems. Finally, OIG asked Department ofﬁcials if they
               anticipated that they will be able to use the reported information as a tool to assess
               compliance with the terms and conditions of contract award agreements, assess the
               risk of contract awards, and determine when to release remaining funds for such
               contract awards.




               4
                Because only a limited amount of ARRA funds were obligated and reported, other than IBWC,
               OIG did not perform a data quality review.


8 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                   UNCLASSIFIED
                                                 UNCLASSIFIED





                                  RESULTS OF REVIEW

        The Department has developed policies, procedures, and plans for reviewing
    quarterly Recovery Act data, ensuring that reports are ﬁled by funds recipients and
    has ensured that the required reviews are conducted. Additionally, ofﬁcials noted
    that they had developed policies and procedures and plans to avoid data quality and
    reporting problems and assess fund recipients’ compliance with contract terms and
    conditions. OIG believes that these actions represent satisfactory progress in apply-
    ing ARRA requirements and guidance from the Ofﬁce of Management and Budget
    (OMB) for reporting and monitoring the use of Recovery Act funds.

    Reviewing Quarterly Recovery Act Data and Ensuring
    Reports Are Filed

        The Department has three ofﬁces with contracting authority responsible for
    projects funded through the Recovery Act: the Bureau of Administration, Ofﬁce
    of Logistics Management, Ofﬁce of Acquisitions Management (A/LM/AQM); the
    Foreign Service Institute (FSI); and IBWC. Each ofﬁce is aware of and is working
    internally to develop appropriate policies and procedures for reviewing reported
    data.

        A/LM/AQM developed guidance on Recovery Act implementation that was last
    updated on October 1, 2009. This guidance includes a reporting review requirement
    for contracting ofﬁcers (CO). If issues arise or additional instructions are received
    as Recovery Act contract administration progresses, A/LM/AQM ofﬁcials said that
    this guidance would be updated.

        A/LM/AQM has assigned speciﬁc COs to each Recovery Act transaction. Each
    CO responsible for speciﬁc transactions will review the reports submitted by recipi-
    ents on www.federalreporting.gov and will note any discrepancies between contractor
    and Department information. If it is determined that another individual will review
    the submissions, each CO will still be responsible for ensuring that the review is
    completed and that any discrepancies are noted.




OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   9 .


                                                 UNCLASSIFIED
                                                    UNCLASSIFIED



                    FSI has assigned responsibility for the tracking of all stimulus funds and review
                of Recovery Act transactions to the Director of Acquisitions. This individual will
                review the reports submitted by recipients on www.federalreporting.gov. Any dis-
                crepancies will be noted, and the contractor will be promptly notiﬁed so that any
                discrepancies can be corrected.

                    The IBWC has developed standard operating procedures for implementation by
                COs consistent with ARRA and Department guidance. COs are required to verify
                that speciﬁc information has been reported by recipients, which requires COs to
                validate all data posted by IBWC recipients on www.federalreporting.gov and com-
                pare the data with contracting information. The review and validation process is to
                be documented in the checklist provided in the SOP by each CO for each recipient.
                Discrepancies are to be reported in a timely manner in accordance with ARRA guid-
                ance and the IBWC SOP to ensure that recipients take proper and timely actions to
                correct posted data.

                Ensuring Required Reviews Are Conducted

                    A Department ofﬁcial noted that A/LM/AQM will survey all COs via e-mail
                one week after the review period begins. Each CO will return a survey noting the
                reviews conducted or not conducted. A follow-up survey will be sent for reviews
                identiﬁed as not-yet-conducted one week later to ensure that all required reviews
                have been completed.

                    The Director of Acquisition at FSI will review all Recovery Act transactions and
                submissions on a weekly basis. The Director of Acquisitions maintains a detailed
                spreadsheet showing commitments, obligations, and outlays pertaining to all con-
                tracts associated with FSI transactions.

                     The IBWC administrators for Recovery Act funds will continue to review all
                ARRA activity, performing speciﬁc reviews of the COs’ recipient reporting check-
                lists to ensure that all recipient reporting reviews are conducted as required.

                    Given the relatively small volume of required data reviews, A/LM/AQM will
                perform full reviews only of reported data. Because of the small number of con-
                tracts at FSI, the Director of Acquisitions will perform 100 percent reviews at least
                once a week. Additionally, the IBWC will validate all recipient reporting data as
                speciﬁed in the ARRA guidance.




10 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                    UNCLASSIFIED
                                                 UNCLASSIFIED




    Avoiding Data Quality/Reporting Problems and Assessing
    Contract Compliance

        On October 6, 2009, A/LM/AQM staff provided speciﬁc instructions to con-
    tracting personnel that their responsibility was to validate that a report was submitted
    by a recipient and to look for material omissions and signiﬁcant reporting errors. If
    any omissions or signiﬁcant errors were noted, the CO was to include questions in
    the comments section for recipient (vendor) response.

        All staff were provided copies of the September 29, 2009, OMB Ofﬁce of
    Federal Procurement Policy Memorandum, Interim Guidance on Reviewing Contractor
    Reports on the Use of Recovery Act Funds in Accordance with FAR Clause 51.204-11. Staff
    also were given a slide presentation by A/LM using Recovery Board screen shots
    and guidance. All A/LM/AQM managers were provided copies of all the material.
    A/LM ofﬁcials said that a follow-up brieﬁng would be conducted with contracting
    personnel who were unable to attend the brieﬁng.

         The Director of Acquisitions at FSI maintains a detailed document containing
    all information that each contractor should be reporting that will be used to check
    the contractor’s submissions, thereby allowing the immediate identiﬁcation of any
    discrepancies.

         The IBWC has sent its acquisition staff all recipient reporting ARRA guidance
    and memorandums issued to date. In particular, June 22, 2009, OMB M-09-21,
    Implementing Guidance for the Reports on Use of Funds Pursuant to the American Recovery
    and Reinvestment Act of 2009, and all subsequent guidance on recipient reporting. In
    addition, an SOP was developed and issued to all COs working on the ARRA proj-
    ect.

        The Department will be able to determine the usefulness of the reported data
    for additional assessments after the ﬁrst quarterly reporting and review has been
    completed. Ofﬁcials anticipate that reported data will assist with assessment of
    compliance with terms and conditions of contract award agreements, but not with
    risk or funding matters. In addition, according to a Department ofﬁcial, systemic
    reporting problems are not anticipated. However, if any reporting problems arise,
    they will be handled as a contract performance matter.




OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   11 .


                                                 UNCLASSIFIED
                                                    UNCLASSIFIED





12 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                    UNCLASSIFIED
                                                 UNCLASSIFIED





                                              APPENDIX A



                     LAWS, REGULATIONS, AND RELEVANT CRITERIA

        The Ofﬁce of Inspector General used the laws, regulations, and criteria applica-
    ble to the review of the policies and procedures for implementation of the American
    Recovery and Reinvestment Act of 2009 as follows:

       American Recovery and Reinvestment Act of 2009 (Recovery Act), Public Law
    111-5, February 17, 2009.

    • 	 The Administration created a Web site, www.recovery.gov to provide informa-
        tion to the public on the planning and implementation of ARRA.
    • 	 Ofﬁce of Management and Budget (OMB) Circular A-133 Compliance Supple-
        ment.
    • 	 OMB Memorandum, Initial Implementing Guidance for the American Recovery and Rein-
        vestment Act of 2009 (M-09-10), February 18, 2009.
    • 	 OMB Bulletin No. 09-02, Budget Execution of the American Recovery and Reinvestment
        Act of 2009 Appropriations, February 25, 2009.
    • 	 OMB Memorandum, Updated Implementing Guidance for the American Recovery and
        Reinvestment Act of 2009 (M-09-15), April 3, 2009.
    • 	 OMB Memorandum, Guidance on Data Submission under the Federal Funding Account-
        ability and Transparency Act (M-09-19), June 1, 2009.
    • 	 OMB Memorandum, Implementing Guidance for the Reports on Use of Funds Pursu-
        ant to the American Recovery and Reinvestment Act of 2009 (M-09-21), June 22, 2009.
    • 	 OMB, Ofﬁce of Federal Procurement Policy Memorandum, Interim Guidance on
        Reviewing Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
        Clause 51.204-11, September 29, 2009.




OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   13 .


                                                 UNCLASSIFIED
                                                    UNCLASSIFIED





14 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                    UNCLASSIFIED
                                                 UNCLASSIFIED





                                              APPENDIX B



                         International Boundary and Water Commission,
                         United States and Mexico, United States Section

                          Report on Controls Placed in Operation 

                         for Compliance With the Requirements of 

                    the American Recovery and Reinvestment Act of 2009 





                                      Leonard G. Birnbaum and Company, LLP

                                           Certiﬁed Public Accountants

                                               6265 Franconia Road

                                            Alexandria, Virginia 22310





OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   15 .


                                                 UNCLASSIFIED
                                                    UNCLASSIFIED





                                            Independent Accountant’s Report
                        At the request of the Ofﬁce of Inspector General (OIG), U.S. Department
                of State, we evaluated the controls placed into operation by the International
                Boundary and Water Commission, United States and Mexico, U.S. Section
                (IBWC). We evaluated the controls for compliance with the requirements of
                the American Recovery and Reinvestment Act of 2009 (ARRA) for tracking
                and reporting Recovery Act funds as established by the April 3, 2009, Ofﬁce of
                Management and Budget (OMB) Memorandum M-09-15, Updated Implementing
                Guidance for the American Recovery and Reinvestment Act of 2009.

                        We conducted this performance audit in accordance with auditing
                standards generally accepted in the United States of America and Government
                Auditing Standards. Those standards require that we plan and perform the audit
                to obtain a reasonable basis for our ﬁndings and conclusions based on our audit
                objectives. Our audit included tests of speciﬁc controls to obtain evidence about
                their effectiveness. We believe that our audit provides a reasonable basis for our
                opinion.

                       In our opinion, the controls in place as of September 30, 2009, as
                discussed in this report, were operating with sufﬁcient effectiveness to provide
                reasonable, but not absolute, assurance that IBWC had adequate processes
                and systems in place to track and report Recovery Act funds and that IBWC’s
                Recovery Act reports were accurate and complete.

                                                              Background

                        On February 17, 2009, President Barack Obama signed the Recovery
                Act into effect, providing $787 billion for Tax Relief ($288 billion), state and
                local ﬁscal relief ($144 billion), Federal social programs ($244 billion), and
                infrastructure ($111 billion). Of the $787 billion, the Department is overseeing
                $600 million of investments. Of the $600 million, $220 million has been allotted
                for IBWC projects.

                        IBWC Recovery Act projects will evaluate and repair portions of the
                ﬂood control systems for 495 miles of the upper and lower Rio Grande River,
                protecting about 3 million U.S. citizens in New Mexico and Texas. The project
                contains funding of $213 million for the construction/repair of levees, $6 million
                to rehabilitate contaminated soil and groundwater, and $1 million for other related
                projects.


16 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                    UNCLASSIFIED
                                                 UNCLASSIFIED



            The Recovery Act incorporated several signiﬁcant requirements for
    agencies that have been appropriated funds under the Act and on the primary
    recipients of Recovery Act funds obligated by these agencies. Principal among
    the new requirements are extensive reporting requirements.

            The “Recovery, Accountability and Transparency Board” was established
    by the Recovery Act to coordinate and conduct oversight of funds to prevent fraud
    of programs, grants,
    and activities to minimize the risks of inefﬁcient or improper actions that could
    put taxpayers’ money at risk.

            The Recovery Act provided funds to the OIGs of recipient agencies to
    ensure that agencies complied with the requirements of the Act. To ensure that
    the agencies comply, OIGs must assess the agencies’ implementation of the Act’s
    requirements as early as possible.

                                                      Objective

               The objective of our audit was to determine whether

               • 	 IBWC had adequate processes and systems in place to track and report
                   Recovery Act funds and

               • 	 IBWC’s Recovery Act reports were accurate and complete.

                                                         Scope

           The scope of this audit was a review and assessment of IBWC’s controls
    over the tracking and reporting of Recovery Act funds. The scope of audit
    included the following:

               • 	 Assessing IBWC’s controls over tracking and reporting Recovery Act
                   funds.

               • 	 Assessing IBWC’s compliance with ﬁnancial and reporting
                   requirements contained in the Recovery Act and all related guidance,
                   including OMB’s February 18, 2009, memorandum M-09-10, Initial
                   Implementing Guidance for the American Recovery and Reinvestment
                   Act of 2009, February 18, 2009, and Memorandum M-09-15,
                   April 3, 2009.




OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   17 .


                                                 UNCLASSIFIED
                                                    UNCLASSIFIED



                               ¾ Under Section 1.5, we ensured that IBWC was meeting
                                 Transparency and Reporting requirements, Information Collection
                                 and Dissemination, Budget Execution, Risk Management, and
                                 Contract Awards requirements.

                               ¾ Ensured that speciﬁc types of reports were issued in accordance
                                 with the following guidelines: 2.1, “Reporting Requirements”;
                                 2.2, “Recovery.gov posting requirements”; 2.4, “Weekly Reports”
                                 ; and 2.6, “Award level transaction data.

                          • 	 Testing the controls over Recovery Act funds included in IBWC’s
                              Recovery Act reports. Speciﬁcally, we tested, on recovery.gov, weekly
                              updated activity reports detailing funding, major actions taken to date,
                              major planned actions, and contracts awarded.

                          • 	 Testing reported Recovery Act expenditures and transactions for
                              completeness and accuracy.




18 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                    UNCLASSIFIED
                                                 UNCLASSIFIED




                                          Findings and Conclusions

         1. Assessing IBWC’s controls over tracking and reporting Recovery Act
         funds:

               a. 	 The addition of approximately $220 million in Recovery Act funding
                    in FY 2009 represents a substantial increase over the normal annual
                    budget of the IBWC and potential related increased risk. As a result,
                    our evaluation included the following:

                    • 	 Review of internal “Risk Assessments” made by IBWC to
                        accommodate the Strategic, Operations and Reporting Compliance
                        aspects of OMB Memorandum M-09-15.

                         We found that formal Memorandum M-09-15 Risk Assessments
                         had been formulated by the Internal Audit/Compliance section
                         of IBWC to address and rank these Recovery Act risk areas.
                         Further, Internal Audit plans incorporated speciﬁc assignments for
                         coverage of “ARRA Compliance” and adherence to “Recovery Act
                         Accountability Objectives” and “ARRA Reporting Oversight.”

                    • 	 Evaluation of controls over the solicitation, award, and
                        expenditure of program funds, including identiﬁcation of the
                        current procurement processes and procedures in place and their
                        adaptability to Recovery Act acquisitions.

                    • 	 We reviewed IBWC’s development and submission of draft
                        and ﬁnal Agency-wide Recovery Act Plans and the related
                        development of transparent, merit-based selection criteria for
                        committing, obligating, and expending Recovery Act funds.

                 b. 	 As a result of what was described in paragraph a, we made the
                      additional observations and conclusions regarding IBWC’s Recovery
                      Act Plan that were made as follows:

                    • 	 IBWC developed and submitted draft and ﬁnal Recovery Act plans
                        and published them on IBWC’s Web site.
                    • 	 IBWC developed and submitted draft and ﬁnal program-speciﬁc
                        plans, including spending plans.




OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   19 .


                                                 UNCLASSIFIED
                                                    UNCLASSIFIED



                               • 	 The “Schedule and Milestones” section of the IBWC – Recovery
                                   Act approved project plan consisted of two major phases; “Pre-
                                   Construction” and “Construction.”
                               • 	 The plans were submitted and incorporated into the Department of
                                   State plan by the required date–May 15, 2009.
                               • 	 The plan identiﬁes the following:

                                  ¾      Objectives

                                  ¾      Measures

                                  ¾      Schedules and Milestones

                                  ¾      Projects and Activities

                                  ¾      Review Processes

                                  ¾      Cost and Performance Plan

                                  ¾      Energy Efﬁciency Spending Plans

                                  ¾      Program Plan award Types

                           • 	 Risk analysis processes have been established and risk mitigation
                               steps have been incorporated into the procurement, selection, and
                               reporting aspects of the plan.
                           • 	 A Senior Accountable Ofﬁcer has been appointed.

                     2. 	 Assessing IBWC’s compliance with ﬁnancial and reporting requirements
                          contained in the Recovery Act and all related guidance:

                          ▪	         Under Section 1.5, we ensured that IBWC was meeting
                                     Transparency and Reporting requirements and Information
                                     Collection and Dissemination, Budget Execution,
                                     Risk Management, and Contract Awards requirements.

                          ▪	         We ensured that speciﬁc types of reports were issued in
                                     accordance with guidelines: 2.1, “Reporting Requirements”;
                                     2.2, “Recovery.gov posting requirements”; 2.4, “Weekly
                                     Reports”; and 2.6, “Award level transaction data.”

                          a. 	 The following observations and conclusions regarding the IBWC’s
                               ﬁnancial and reporting requirements were made:

                               • 	 News releases and other publications and communications have
                                   been issued in connection with the plans.
                               • 	 IBWC has dedicated seven Web pages to the Recovery Act and has
                                   several other references at the Department of State level.
                               • 	 IBWC publishes solicitation and award notices of orders under
                                   task and delivery orders on FedBizOpps.
                               • 	 IBWC posts summaries of procurements to FedBizOpps.


20 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                    UNCLASSIFIED
                                                 UNCLASSIFIED



                    • 	 Unique Appropriation Codes and Treasury Symbols are used to
                        distinguish Recovery Act funds from Non-Recovery funds.
                    • 	 A sealed bid process for construction projects is the preferred
                        award method utilized.
                    • 	 A contract clause matrix is used to ensure that all applicable
                        clauses are incorporated into solicitations. Recovery Act clauses
                        are highlighted to ensure awareness of their importance.
                    • 	 Awarded contracts using Recovery Act funds include appropriate
                        reference to the directed Federal Acquisition Regulation clause at
                        §52.204-11.
                    • 	 Performance milestones and schedules are established for each
                        Recovery Act project and are monitored by the Contracting Ofﬁcer
                        on a weekly basis for architect/engineer design services and
                        reported to management via weekly reports. The same will be
                        established for construction contracts when awarded as a result of
                        Recovery Act funding.
                    • 	 Payments against Recovery Act projects are based on progress
                        payments.
                    • 	 Only direct costs are introduced for funding considerations
                        under the Recovery Act appropriation for costs related to pre-
                        construction and construction requirements, per approved project
                        plans.
                    • 	 IBWC’s Engineering Department submits purchase requests for
                        each of the various types of services required. These are in turn
                        reviewed and approved by the Budget representatives.
                    • 	 Obligations are accomplished upon award of the orders in support
                        of the Recovery Act project.
                    • 	 Expenditures or payments are made upon receipt of Receiving
                        Reports from the Contracting Ofﬁcer’s Representative and
                        invoices from the contractor and after appropriate reviews and
                        reconciliations are accomplished.

               3. 	 Testing controls over Recovery Act funds included in IBWC’s
                    Recovery Act reports. Speciﬁcally, tests were made of the following
                    reports shown on Recovery.gov: weekly updated activity reports
                    detailing funding, major actions taken to date, major planned
                    actions, and contracts awarded.

                    • 	 We observed and concluded that IBWC had submitted weekly
                        reports beginning on March 3, 2009, that provided a breakdown of
                        funding, major actions taken to date, and major planned actions.



OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009   21 .


                                                 UNCLASSIFIED
                                                    UNCLASSIFIED



                          4. 	 Testing reported Recovery Act expenditures and transactions for
                               completeness and accuracy.

                     a. 	 We observed and concluded the following:

                           • 	 All ﬁnancial data for recordation and reporting is extracted from the
                               Global Financial Management System (GFMS).
                           • 	 Quarterly obligation reports are created using data obtained from
                               GFMS to create the FACTS II reports and to enter the data into the
                               Treasury system, which generates the SF-224 report. A review is
                               conducted to ensure that both reports contain the same subtotals and
                               totals by category.
                           • 	 Funding Notiﬁcation Reports come from the standard GFMS
                               accounting processes. The source of inputs to the GFMS system
                               comes from the normal acquisition process steps and related
                               documentation, as well as from contractors on invoices and
                               supporting documentation.
                           • 	 The Acquisitions Ofﬁce maintains, among other tracking vehicles, a
                               comprehensive and detailed “Trackable Synopsis” schedule, which
                               provides a progressive status summary of all task orders for architect–
                               engineer design and environmental assessment work.
                           • 	 Tests of “Spending Chain” milestones and related acquisition
                               supporting documentation for the awards were made to assess the
                               data gathering means used by IBWC for funding reporting. No
                               exceptions were noted.
                           • 	 Selective tests were made of reported Recovery Act expenditures
                               and transactions for completeness and accuracy. No exceptions were
                               noted.

                        This report is intended solely for the information and use of the
                Department of State Ofﬁce of Inspector General and management of the
                International Boundary and Water Commission, United States and Mexico, U.S.
                Section, and is not intended to be, and should not be, used by anyone other than
                these speciﬁed parties.


                Leonard G. Birnbaum and Company, LLP
                Alexandria, Virginia

                October 8, 2009




22 . OIG Report No. AUD/PP-10-07, Rev. of Policies and Procedures for Implementing the ARRA of 2009 at the Dept of State - Oct 2009


                                                    UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
